<html>
<title> - TRIBAL PARITY ACT</title>
<body><pre>[Senate Hearing 108-620]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-620

                           TRIBAL PARITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1530

TO PROVIDE COMPENSATION TO THE LOWER BRULE AND CROW CREEK SIOUX TRIBES 
OF SOUTH DAKOTA FOR DAMAGE TO TRIBAL LAND CAUSED BY PICK-SLOAN PROJECTS 
                        ALONG THE MISSOURI RIVER

                               __________

                             JUNE 15, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
94-449                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 1530, text of.................................................     3
Statements:
    Big Eagle, Sr., Duane, chairman, Crow Creek Sioux Tribe......    10
    Daschle, Hon. Tom, U.S. Senator from South Dakota............     6
    Jandreau, Michael, chairman, Lower Brule Sioux Tribe.........    10
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     1
    Lawson, Michael L., senior associate, Morgan, Angel and 
      Associates, Public Policy Consultants......................     8
    Mooney, Ross, acting director of Trust Services, BIA, 
      Department of the Interior.................................     7
    .............................................................

                                Appendix

Prepared statements:
    Big Eagle, Sr., Duane........................................    19
    Jandreau, Michael............................................    21
    Lawson, Michael L. (with attachments)........................    25
    Mooney, Ross.................................................   113
Additional material submitted for the record:
    Letter from M. Michaels Rounds, Governor, State of South 
      Dakota.....................................................   114

 
                           TRIBAL PARITY ACT

                              ----------                              


                         TUESDAY, JUNE 15, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:08 a.m. in 
room 485, Senate Russell Building, Hon. Tim Johnson, (acting 
chairman of the committee), presiding.
    Present: Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. I will bring the Senate Committee on 
Indian Affairs to order.
    Today, the Committee on Indian Affairs will conduct a 
hearing regarding S. 1530, a bill to provide compensation to 
the Lower Brule and Crow Creek Sioux Tribes of South Dakota for 
damage to tribal land caused by Pick-Sloan projects along the 
Missouri River.
    Before we begin, I want to thank Chairman Campbell and Vice 
Chairman Inouye for permitting this hearing to take place. I 
also want to thank their staffs for their assistance in making 
this happen.
    I want to especially thank Senator Daschle for his 
leadership on Missouri River issues in general. Senator Daschle 
was instrumental in getting the Crow Creek Sioux Tribe and 
Lower Brule Sioux Tribe Infrastructure Development Trust Fund 
Acts passed to begin with. Senator Daschle's leadership on 
Indian issues is a blessing to our tribes throughout South 
Dakota, and truly our tribes have no better friend in 
Washington than my friend and colleague, Senator Tom Daschle.
    I want to welcome our South Dakota witnesses to the 
committee. Chairman Jandreau of the Lower Brule Tribe is truly 
the Dean of our tribal leaders. As a tribal leader for over 30 
years, I rely on his experience and perspective and I 
appreciate the wisdom that he has so kindly provided my office 
throughout the years.
    I also want to extend a big welcome to Chairman Big Eagle 
of the Crow Creek Tribe. This past year has presented Duane 
with many challenges. Chairman Big Eagle has been a tireless 
advocate for the children of Crow Creek, whether it has been 
advocating for better educational facilities or for real 
solutions for the youth suicide crisis on his reservation. 
During these challenging times, I appreciate the leadership 
that Chairman Big Eagle has demonstrated. Thank you for your 
friendship and I am pleased that Diane could join you here for 
the hearing today.
    I want to welcome Norm Thompson and Crystal Kirkie of the 
Crow Creek Tribal Council, as well as Chairman Frazier of the 
Cheyenne River Sioux Tribe to this committee, and thank them 
for being part of this important hearing, and for all that they 
do for their constituents, for their people.
    The Lower Brule Sioux Tribe and the Crow Creek Tribe were 
both impacted by two significant dam projects located on the 
Missouri River, the Fort Randall Dam and the Big Bend Dam. Both 
projects resulted in the inundation of several thousands of 
acres of land on the reservations of these two Indian tribes. 
In 1962, Congress attempted to mitigate the impacts of these 
two projects on the two reservations and the Indian people who 
were living on them by enacting the Big Bend Recovery Act. This 
Act was insufficient. Thus, Congress felt it was necessary to 
enact the Crow Creek Sioux Tribe Infrastructure Development 
Trust Fund Act of 1996, and then one year later, the Lower 
Brule Sioux Tribe Infrastructure Development Trust Fund Act.
    Both these Acts created an infrastructure development trust 
fund for the respective tribes. Last year, Senator Daschle 
sponsored, and I cosponsored, S. 1530. This bill recognizes the 
need to amend the Acts, compensating these tribes at a more 
appropriate level. It is with great pleasure that I recognize 
first Leader Daschle, followed by four witnesses, Ross Mooney, 
Chairman Michael Jandreau, Chairman Duane Big Eagle, and Dr. 
Mike Lawson.
    [Text of S. 1530 folows:]
      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Johnson. I know that we are anticipating a vote 
sometime around 12:10 this afternoon so I am going to do what I 
can to expedite the testimony here. Before we go to the first 
panel, I defer to South Dakota's Senior Senator, the Democratic 
Leader, Senator Tom Daschle.
    Welcome, Tom.

 STATEMENT OF HON. THOMAS A. DASCHLE, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Daschle. Thank you very much, Tim, first for 
chairing this important hearing and for cosponsoring S. 1530. 
Your leadership and commitment to Native Americans and the 
incredible work that you invest on a daily basis on their 
behalf is widely recognized. Once again, your presence here 
this morning is yet the latest illustration of your commitment 
to these issues.
    I, like you, would like to thank Chairman Campbell and Vice 
Chairman Inouye and their remarkable staffs for their 
cooperation and the effort that they have made to allow us to 
have this hearing today. Like you, I also want to welcome our 
chairs, Mike Jandreau and Duane Big Eagle, remarkable chairs 
that have done so much on behalf of their people; and recognize 
as well Chairman Harold Frazier of Cheyenne River who certainly 
knows the consequences of damming the Missouri River as well as 
anybody in our State.
    Because of the interest that you noted in finishing our 
hearing within an hour, I want to be very brief this morning. 
Let me simply say that the consequences of the dams and the 
construction of those dams was devastating for people who lived 
and generated their livelihoods all along the Missouri River. 
Land, homes, local economies, entire communities were actually 
destroyed. Families who lived along the river were forced into 
housing, oftentimes inadequate and poorly constructed. Many 
lost their whole way of life.
    The compensation from the Federal Government could never 
possibly be sufficient to deal with the loss that many of these 
people experienced. We can never erase the damage that has been 
done. But if we have an obligation, we have an obligation to do 
the best we can to rebuild what some have lost in the best way 
we know how. That really is what the Joint Tribal-Federal 
Advisory Committee, or so-called JTAC legislation passed over 
the last few years has been designed to do.
    Chairmen Jandreau and Big Eagle can tell you how they have 
used that compensation for the benefit of their people. But in 
the various JTAC bills, different methodologies for calculating 
compensation have now been used. S. 1530 is an attempt to level 
the playing field for all the affected tribes. Knowing there is 
confusion about what truly constitutes parity, it is a 
complicated equation and I am very pleased that Mike Lawson, 
who is a real expert, can be here to explain how we might 
define it in policy terms, hoping this hearing will move us one 
step forward and closer to achieving a final and most 
importantly the just compensation to all tribes that were so 
devastated by the Pick-Sloan flooding and all of the 
experiences that came as a result of it.
    So Mr. Chairman, I thank you again for your commitment to 
this legislation. I thank our tribal leaders for their 
willingness to come to express again the need for early passage 
of this bill. My hope is that once and for all we can make the 
commitment on behalf of the Federal Government that needs to be 
made in support of the many, many thousands of Native Americans 
who lost so much with the construction of the dams, now some 50 
years ago.
    I thank you for your chairing this hearing this morning, 
and I will turn the dais over to my colleagues from South 
Dakota.
    Senator Johnson. Thank you, Senator Daschle, for your 
extraordinary leadership. I think it is fair to say that 
Congress would not even be to the point of debating this issue 
were it not for your leadership and your guidance on this 
matter.
    I appreciate that you have ongoing obligations on the 
floor, and certainly understand if you felt a need to return to 
the Capitol. Thank you again for your statement this morning, 
and I look forward to working very closely with you and with 
our tribal leaders in South Dakota on this issue.
    Senator Daschle. Thank you, Mr. Chairman.
    Senator Johnson. Our first panel this morning consists of 
Ross Mooney who is acting director of Trust Services, Bureau of 
Indian Affairs [BIA], Department of the Interior here in 
Washington, DC. Welcome, Mr. Mooney. Your entire written 
statement will be received in the record, so if you so choose 
to summarize in an oral fashion, that is very acceptable to the 
Chair.

  STATEMENT OF ROSS MOONEY, ACTING DEPUTY DIRECTOR, OFFICE OF 
             TRUST SERVICES, BIA, DEPARTMENT OF THE
                           INTERIOR.

    Mr. Mooney. Thank you.
    Good morning, Mr. Chairman and members of the committee. I 
am pleased to be here today to present the views of the 
Administration on S. 1530, the Tribal Parity Act.
    If enacted, S. 1530 would increase the compensation to the 
Lower Brule and Crow Creek Tribes for their loss of lands and 
cultural resources as a result of the Pick-Sloan project. The 
intent of this legislation is to put the compensation on par 
with that provided to similarly situated tribes in the region 
that have already received compensation for losses resulting 
from Pick-Sloan.
    Section 2 of S. 1530 references a methodology determined 
appropriate by the General Accounting Office. We are under the 
assumption the sponsors are referring to the GAO reports of May 
1991 concerning the Fort Berthold and Standing Rock Sioux 
Tribes; and January 1998 concerning the Cheyenne River Sioux, 
in which questions were raised about the calculations used to 
determine the amounts of the compensation provided.
    Within appendix 3 of the January 1998 GAO report, there is 
a table which states in the footnotes that dollar amounts shown 
are not comparable. The original payments authorized and the 
additional compensation authorized are not comparable across 
the five reservations or with each other. In 1991, testimony 
provided on behalf of GAO stated the question of whether 
additional compensation should be provided to the tribes is a 
policy decision for the Congress.
    To summarize, the Department is not in a position to 
comment on whether these two tribes were equitably compensated 
that at this time. However, we will be happy to work with the 
sponsor of the bill, this committee, and the tribes to 
determine if, in fact, there was an inequitable calculation 
regarding the original principal amounts.
    This concludes my testimony and I will be happy to respond 
to any questions you may have.
    Thank you.
    [Prepared statement of Mr. Mooney appears in appendix.]
    Senator Johnson. Thank you for your testimony today, Mr. 
Mooney. We on the committee, I think it is fair to say, 
recognize that this is a policy determination that ultimately 
needs to be made. On the other hand, it is important that that 
determination not be made on some random basis and that there 
be a sense of fairness and uniformity to however it is we do 
approach the resolution of the compensation package.
    I would simply say, I would hope that, as you indicated in 
your statement, that you would be willing to work with us in a 
constructive fashion to create an equitable compensation 
package for the Lower Brule and the Crow Creek Tribes.
    Mr. Mooney. Surely.
    Senator Johnson. We very much appreciate that and we 
recognize your expertise in this area, and we will be working 
closely with you, Mr. Mooney. Thank you for your testimony.
    Mr. Mooney. Thank you.
    Senator Johnson. The second panel this morning consists of 
Michael Lawson, Ph.D., senior associate, Morgan, Angel and 
Associates, Public Policy Consultants of Washington, DC; also 
Michael Jandreau, chairman, Lower Brule Sioux Tribe of Lower 
Brule, SD; and Duane Big Eagle, Sr., chairman, Crow Creek Sioux 
Tribe of Fort Thompson, SD.
    Would you please join us at the witness table?
    Mr. Lawson, welcome to the hearing this morning. We will 
begin this panel with your testimony. As I indicated earlier, 
your full statement is received for the record. If you choose 
to summarize in oral fashion, that is acceptable to the 
committee.

STATEMENT OF MICHAEL L. LAWSON, SENIOR ASSOCIATE, MORGAN, ANGEL 
           AND ASSOCIATES, PUBLIC POLICY CONSULTANTS

    Mr. Lawson. Thank you.
    Mr. Chairman and members of the committee, I am Mike 
Lawson, a historian with Morgan, Angel and Associates, a public 
policy consulting firm here in Washington. I am grateful to 
have the opportunity to testify today in regard to S. 1530, the 
Tribal Parity Act. With your permission, Mr. Chairman, I would 
like to provide my written statement for the hearing record, 
along with my report entitled, Parity Compensation for Losses 
from Missouri River Pick-Sloan Dam Projects, and then summarize 
my findings.
    Senator Johnson. Without objection, these documents are 
received into the record.
    [Referenced documents appears in appendix.]
    Mr. Lawson. I was asked to review the proposed Tribal 
Parity Act in light of previous compensation that Congress has 
provided to tribes impacted by the Pick-Sloan Dam projects, 
based on a methodology approved by the General Accounting 
Office. The bottom line, Mr. Chairman, is that both the Lower 
Brule Sioux Tribe and the Crow Creek Sioux Tribe are due 
additional compensation from the United States if parity is to 
be maintained among the Missouri River tribes.
    Please allow me to elaborate. On two prior occasions, 
Congress has provided final settlements to Missouri River 
tribes based on a methodology for determining fair compensation 
recommended by the GAO in 1991. The 102d Congress enacted 
Public Law 575 in 1992 which authorized the establishment of a 
recovery trust fund capitalized at $149.2 million for the Three 
Affiliated Tribes of the Fort Berthold Reservation in North 
Dakota. The 106th Congress approved Public Law 511 in 2000, 
which appropriated $290.7 million for the establishment of a 
recovery trust fund for the Cheyenne River Sioux Tribe of South 
Dakota.
    The method for determining additional compensation approved 
by Congress in these two prior statutes was based on a 
calculation of the difference between the amounts determined by 
the tribes to be warranted at the time of taking, and the 
amounts that Congress eventually provided to them as 
compensation. The compensation recommended by the GAO in 1991 
and reiterated in a 1998-GAO report on the Cheyenne River 
compensation, was to take the difference between the amounts 
requested by the tribes and the amounts appropriated by 
Congress and add to that difference the average annual rate of 
interest that would have accrued over time had the amount of 
difference been invested in AAA-rated corporate bonds. AAA is 
the highest grade of corporate bonds as determined by bond 
rating services such as Moody's Investment Services.
    In accordance with this method of determining fair 
compensation, the Lower Brule Sioux Tribe is entitled to a 
parity payment and additional final compensation of 
$147,082,140, and the Crow Creek Sioux Tribe to $78,417,853, 
for their Pick-Sloan damages. The calculations on which these 
amounts are based are summarized in the table I have provided 
to the committee entitled, Basis for Parity Compensation. I 
would be happy to walk the committee through these numbers, 
either now or at any time in the future.
    The damages suffered by the Lower Brule and Crow Creek 
Sioux Tribes as a result of the Fort Randall and Big Bend Dam 
projects are comparable to the impacts of the Garrison Dam on 
the Three Affiliated Tribes at Fort Berthold and of the Oahe 
Dam on the Cheyenne River Sioux Tribe. This is especially true 
in regard to the loss of natural resources and reservation 
infrastructure, and the forced relocation of tribal members.
    I have concluded based on my review that additional 
compensation for the Lower Brule and Crow Creek Sioux Tribes is 
warranted and required if the United States is to treat all of 
the Missouri tribes equally. I therefore support S. 1530 as 
being a consistent, accurate and a fair method by which the 
Federal Government can provide parity to all of the Missouri 
River Tribes.
    This concludes my remarks. I would be happy to answer any 
questions that you may have.
    [Prepared statement of Mr. Lawson appears in appendix.]
    Senator Johnson. Thank you, Dr. Lawson. I think what we 
will do is conclude the testimony of this panel and then 
reserve questions for after that testimony has been provided.
    The committee also welcomes Marshall Matz to the table as 
well, a highly respected counsel here in Washington on these 
kinds of issues.
    Second on our panel today we will turn to Chairman Jandreau 
for your statement, and again your full statement is received 
for the record.

  STATEMENT OF MICHAEL JANDREAU, CHAIRMAN, LOWER BRULE SIOUX 
                             TRIBE

    Mr. Jandreau. First I would like to thank the committee. I 
would like to thank Senator Daschle and yourself for 
cosponsoring this bill.
    I would like to state that the amount of dollars that are 
to be received have been a long time coming. We are very 
grateful for the initial trust fund that was given to us. We 
have been able to accomplish a tremendous amount on our 
reservation with that. We are grateful also to you and to 
Senator Daschle and to Congress for allowing us that 
opportunity.
    However, in spite of the fact that we have used these 
dollars to impact positively the growth and development of our 
tribe, we still suffer the same issues of poverty, of 
joblessness, not to as large an extent as it was previously, 
but we have a long way to go for the entire development. We 
need to be able to leverage more with private industry to make 
our dollars effectively work for our tribes.
    We need this opportunity and I guess I feel a little ill at 
ease because the last time I was here I had the elders of our 
tribe, many of them, here supporting this actively. We could 
not afford to do it this time. However, they are in support of 
the expansion of this.
    I thank you for the opportunity to come and testify before 
you today.
    [Prepared statement of Mr. Jandreau appears in appendix.]
    Senator Johnson. Thank you, Mr. Chairman, for your 
testimony, and most of all for your longstanding extraordinary 
leadership of the Lower Brule Tribe.
    Last on this panel, Chairman Duane Big Eagle, Sr. Duane, 
welcome to the committee and again, as with the others, your 
full statement is received for the record.

 STATEMENT OF DUANE BIG EAGLE, Sr., CHAIRMAN, CROW CREEK SIOUX 
                             TRIBE

    Mr. Big Eagle. Thank you.
    Mr. Chairman and members of the committee, I am Duane Big 
Eagle, chairman of the Crow Creek Sioux Tribe. I thank you very 
much for the opportunity to testify in support of the Tribal 
Parity Act, S. 1530.
    I would like to thank Senator Daschle for the introduction 
of legislation and you, Senator Johnson, for cosponsoring. The 
legislation before you this morning is of great importance to 
the Crow Creek Sioux Tribe. We support it and urge its 
favorable consideration by the committee and the Congress.
    The Crow Creek Sioux Tribe, like Lower Brule, is a Band of 
the Great Sioux Nation and a signatory of the Fort Laramie 
Treaty of 1851 and the Fort Sully Treaty of 1865. The Missouri 
River established our western boundaries directly across the 
river from Lower Brule. The Big Bend Dam connects our two 
reservations and its construction affected our two reservations 
in a similar manner. It flooded our best bottomlands and 
required us to relocate our town. For us, that is Fort 
Thompson. In 1996, the Congress enacted Public Law 104-223, 
creating the Crow Creek Sioux Tribe Infrastructure Development 
Trust Fund Act. It established a trust fund of $27.5 million 
for the benefit of the tribe. The legislation before you today, 
S. 1530, the Tribal Parity Act, would complement that earlier 
law.
    We are not seeking any advantage over any other tribe, just 
parity. The additional compensation called for in the Tribal 
Parity Act was computed by Dr. Lawson based on methodology used 
by the GAO for our other tribes. The amount included in the 
legislation was not computed by either the Crow Creek Sioux 
Tribe or the Lower Brule Sioux Tribe. It is the amount that Dr. 
Lawson has computed. It would bring us up to the standard used 
by the Congress for the Cheyenne River.
    Candidly, Mr. Chairman, our tribe needs every dollar that 
is fairly owed to us. Our unemployment rate is high. Our health 
problems are a significant barrier to progress, and our 
education and infrastructure systems are in need of great 
improvement. With the interest on the trust fund, we could much 
more effectively meet the challenges we face on our 
reservation, and these challenges cannot be overstated. We are 
a small tribe with great human needs. The Tribal Parity Act is 
vital to the progress and the future of the Crow Creek Sioux 
Tribe.
    Mr. Chairman, we all know painfully the history of the 
reservations in the United States and the history of the Great 
Sioux Nation tribes in particular. We are not near any major 
population centers. We have a casino, as does Lower Brule, that 
will never be a major source of income. For us to stand a 
chance, we must at a minimum be fairly compensated for the land 
that was taken by the Pick-Sloan. The $78 million in the parity 
bill for Crow Creek, if added to our current trust fund, would 
give us a trust fund of $105 million. The interest on this 
trust fund would provide Crow Creek with resources necessary to 
make a significant difference in the lives of our people, in 
the lives of our children and grandchildren. It would, in 
short, give our tribe a second chance.
    Thank you for your consideration. I would be pleased to 
answer any questions.
    [Prepared statement of Mr. Big Eagle appears in appendix.]
    Senator Johnson. Thank you, Mr. Chairman.
    Let me begin some questions for Dr. Lawson. As I understand 
from your testimony, the Cheyenne River and the Three 
Affiliated settlements which were approved by Congress were 
based on the damages claimed by the tribes at the time of 
taking. Is that a correct observation?
    Mr. Lawson. That is correct.
    Senator Johnson. By comparison, the Lower Brule and Crow 
Creek trust funds were not based on the damages claimed by the 
tribes at the time, but were based on a per-acre calculation. 
Is it fair to say that that discrepancy is at the heart of this 
debate and of the parity bill?
    Mr. Lawson. Yes; what this legislation seeks to do is to 
resolve this discrepancy between two different methodologies of 
determining the fair compensation.
    Senator Johnson. As a historian, it would be interesting to 
me and to the committee to go back just a few years. Why wasn't 
the Fort Berthold, Standing Rock, and Cheyenne River Sioux 
formula used in 1996?
    Mr. Lawson. We have not completely found all the 
documentation on that, but it seems to be that these two tribes 
were not aware of that formula in 1996 and 1997, and 
surprisingly neither the GAO nor the Congress made them aware 
that this methodology had been applied in the previous 
legislation.
    Senator Johnson. The amount called for in your testimony 
today is somewhat higher than the parity bill as it was 
originally introduced. I gather that this is simply the effect 
of additional interest in the intervening years. Is that 
correct?
    Mr. Lawson. Yes; that is correct. The original bill as 
introduced reflected the calculation of interest through 
calendar year 2002. The revised numbers reflect the calculation 
that includes the interest through calendar year 2003.
    Senator Johnson. If you could put together a written 
analysis of the difference between the Fort Berthold, Standing 
Rock, Cheyenne River formula versus the 1996 approach, that 
would be very helpful. We could put that in the record.
    Mr. Lawson. I would be happy to do that.
    Senator Johnson. That would be very helpful. Thank you.
    I appreciate that the final assessment about whether the 
reconciliation process is complete or not is a question that 
only the members of the Lower Brule and the Crow Creek Tribes 
themselves can answer. But from your perspective, would this 
parity in approach be a significant step toward reconciliation 
between the Indian and non-Indian communities along the 
Missouri River?
    Mr. Lawson. From my perspective, I view this legislation as 
being a final settlement for all of the damages that these 
tribes have suffered as a result of the Pick-Sloan dam 
projects.
    Senator Johnson. Very good.
    For Chairmen Jandreau and Big Eagle, again I thank you both 
for your testimony and for coming all the way to Washington to 
testify on this important legislation. I wonder if you could 
summarize for me in a brief fashion what the existing trust 
funds that you have under current law have allowed you to do on 
your respective reservations. Chairman Jandreau, what has that 
money been used for?
    Mr. Jandreau. The dollars that received through the trust 
fund have been leveraged to develop approximately $15 million 
worth of buildings that were sorely needed, a new tribal 
headquarters, a community center, a new office for the Wildlife 
Department. It contributed to the expansion of our rural water 
storage facilities. It helped us and solely was used for the 
construction of an ambulance office and garage.
    It has also been used to set up a fund for burial of our 
people that meets standards that are much higher than were 
allowed before. It has allowed us to provide a substantial 
increase in our educational dollars for the youth. It has 
allowed us to do some things with economic development, and as 
far as it was able, to expand a loan program on the reservation 
for individual members of the tribe.
    Totally, those dollars have been a significant part of 
helping to reduce and level the employment processes on the 
reservation. Those things roughly are what we have done up to 
this point.
    Senator Johnson. As you know, thanks to your hospitality, I 
have had an opportunity to tour those facilities on the Lower 
Brule. I can attest myself to what a wonderful improvement in 
the quality of life and the public health and safety and 
welfare of the people these projects have created. I am 
appreciative of your leadership in very innovatively using the 
dollars available in a way that maximizes their impact.
    Can you imagine any way that these projects would have been 
built, completed, or these programs put underway, without the 
resources from the trust fund?
    Mr. Jandreau. I guess knowing South Dakota and the 
inability to access with the limited resources that we had 
prior to this, it may have been able to be done, but it would 
have taken a long, long time to make it happen.
    Senator Johnson. The revenue from the trust fund, that is 
going to be required for some years to come now to pay off this 
indebtedness. So there is not a lot of additional room for 
still new initiatives or projects, given the revenue that you 
have. Is that correct?
    Mr. Jandreau. Yes; many of the plans that we laid out, or 
many of the developments that we have laid out in our plan are 
not going to be able to be accomplished for a long time, even 
under the old trust fund. With the new trust fund, should it be 
capitalized efficiently, will allow us the opportunity to meet 
the plan that we submitted to Congress.
    Senator Johnson. Can you give us some examples of things 
that you would be able to do if we were able to pass this 
legislation and improve the size of the trust fund?
    Mr. Jandreau. I sincerely believe that we would be able to 
complete our detention facility, holistically, that we are now 
in the process of constructing; that we could in all 
probability reduce unemployment to zero simply because of the 
outlaying plans that there are to employ not only adults, but 
youth; that we would expand our educational opportunity capital 
by at least 50 percent to 75 percent greater than we are 
providing today; that we could develop some of the economic 
opportunities such as tourism development and other activities 
that would stabilize the long-term growth of the reservation 
more effectively. We have the plans, but not the dollars.
    Senator Johnson. Thank you for that.
    On the Lower Brule, is there broad support for this 
legislation among the people on the Council with the Elders?
    Mr. Jandreau. I guess, you know, you have been around 
reservations for a long time, Senator.
    Senator Johnson. Unanimity is never possible, but a large 
consensus.
    Mr. Jandreau. If there is anything that there is any 
unanimity on, it would be in support of this.
    Senator Johnson. Very good.
    I would note as well that the Lower Brule sits astride very 
historic land related to the Lewis and Clark trip up the 
Missouri River.
    Chairman Big Eagle, I would ask you the same questions that 
I did to Mike. Could you give us a general picture of how have 
you used the resources from your existing trust fund up until 
now?
    Mr. Big Eagle. Senator, after a series of meetings with the 
three districts that we have on the Crow Creek Reservation and 
much consultation with the Elders and the tribal members asking 
them what they felt their wants and needs are, in our Big Bend 
District we purchased a school building that now provides 
educational facilities for over 40 children and 16 Head Start 
children. In our Fort Thompson and Crow Creek Districts, we 
have put up community buildings; the Crow Creek District in 
particular, with a gymnasium, so that children that are out 
there literally in the middle of nowhere can now have 
recreational activities in the evenings, which offsets what we 
like to feel is the ongoing suicide rate in our teenagers on 
the reservation.
    Senator Johnson. Share with us, have you had a recent spate 
of youth suicide?
    Mr. Big Eagle. Yes; we have. I believe it was addressed to 
me by one of Senator Daschle's staff at one point in time that 
a township of 2,200 people had an average of 22 suicide 
attempts or successes a month.
    Senator Johnson. A month.
    Mr. Big Eagle. A month.
    Senator Johnson. That is remarkable.
    Mr. Big Eagle. We have also purchased a tract of land at 
the insistence of a local rancher that would refuse to sell his 
land to anybody else but the tribe, that sits adjacent to the 
substation or the grid that is located north of Fort Thompson 
there, and have been working with South Dakota public utilities 
and other outside investment firms on developing wind energy. I 
believe in last week's Sioux Falls Argus Leader, Senator 
Daschle commented that South Dakota could produce 276,000 
megawatts with wind energy. We are at present hoping that we 
will someday establish at least 150 wind turbines on that tract 
of land for a start.
    Senator Johnson. You have the circumstance where you are 
located in an area where there is a lot of wind potential, but 
also you are next to the Big Bend Dam and the electricity grid 
that runs through there. So both you and Lower Brule have some 
potential in that regard, I would think.
    Mr. Big Eagle. We have set aside $100,000 annually for a 
student scholarship program for those that want to continue 
school and further their education. Like Lower Brule, I think 
Chairman Jandreau has kind of summed up a lot of the other 
useful purposes that the infrastructure has provided, the 
doorways that it has opened. We are grateful for that at this 
time.
    Senator Johnson. If you were to have a significantly 
enhanced trust fund, any thoughts about the kinds of things 
that you would use that revenue for?
    Mr. Big Eagle. At the present time, some of the issues that 
I work on, as you are aware of, is our educational facilities 
that are collapsing as we speak. I meet with the elderly who 
live in an outdated 1969 elderly center and have asked the 
tribe for help in setting up some kind of assisted living 
quarters because the houses that they live in have so many 
other relatives living in them.
    We have a large variety of contact with the elderly people 
in our community and they provide a lot of support in things 
that we want to do. So other than major road repair, probably 
we had to pass up the opportunity to work with a company out of 
Colorado that had contracts with the military to develop 
decontamination devices in this state of terrorism that we go 
through. We would have liked to have been able to put up a 
building that would have been suitable for such a factory and 
probably would have created somewhere in the area of 50 to 
whatever jobs.
    Senator Johnson. I have had an opportunity to tour the 
school at Stefan. In fact, Kevin Gover was with us those years 
ago. It was in deplorable condition then. Since then, things 
have only become worse. Thanks to your work and working with 
Senator Daschle, we have made some improvements on the 
gymnasium there, but there is much that remains to be done.
    Let me ask both the Chairmen here, either one of you can 
take this, to describe the planning process in place on your 
reservations that will assure the committee that the trust 
funds will be utilized in accordance with the wishes of the 
tribal people themselves; that there is a thoughtful public and 
organized utilization of the money. That this is not just free 
cash lying around someplace; that there is in fact a very 
systematic way of utilizing the trust fund.
    Mr. Jandreau. Senator, at Lower Brule presently we have an 
Infrastructure Development Committee that consists of 
approximately 16 people who are in various parts of the tribe, 
program directors, individuals of the community. Also in 
addition to that, we have representatives from the Bureau of 
Indian Affairs and from Indian Health Service who we utilized 
in an ongoing process to deal with any way that these dollars 
are programmed to be funded; any way that they will affect a 
plan into the future. Those activities after hearing by this 
particular committee, after being vetted to the public, are 
then provided to the Tribal Council for enactment. That is how 
we move this process forward at Lower Brule.
    Senator Johnson. Does the BIA have a role in this?
    Mr. Jandreau. Yes; their role is primarily advisory, the 
same way with Indian Health Service. Their role is primarily 
advisory. But the strength of personality that is there, if it 
is something that is not being conducted in a proper way, they 
are there to help with a guiding hand also.
    Senator Johnson. And there is an audit process that is 
involved?
    Mr. Jandreau. We have a yearly audit that is accomplished 
on all funds that are received by our tribe.
    Senator Johnson. Chairman Big Eagle, what is the process on 
your reservation?
    Mr. Big Eagle. Although we lack a committee, we meet with 
the people in our Tribal Council chambers and listen to their 
ideas and suggestions as to what they want done. We try to do 
this in a manner that we include all three districts. Like I 
say, we get a lot of advice from our tribal membership, our 
elderly and our young, and we try to follow at any point their 
direction. As I say, if anybody knows best what they need, it 
is them.
    So at some point in time, based on the unemployment ratio 
on the Crow Creek Reservation----
    Senator Johnson. What would you estimate that to be?
    Mr. Big Eagle. I would probably guess at this point 
somewhere in the high 80's, 85 percent.
    Senator Johnson. High 80's of unemployment?
    Mr. Big Eagle. Yes, sir; people have the opportunity to 
work on farms and ranches and travel to surrounding towns to 
commute for work. We try to employ as many as we can on a full-
time or part-time basis. The Corps of Engineers recently now 
has started employing tribal members from both Lower Brule and 
Crow Creek, which has been very helpful.
    So I think whether it is a committee or whether it is just 
a general community meeting with the people, we both look at 
going in the same direction. That is what is best for the 
benefit of our tribes.
    Senator Johnson. Again, as I asked Chairman Jandreau, in 
your view there is pretty broad-based support on your Council 
and among your people for this legislation?
    Mr. Big Eagle. Yes; at our last Tuesday council meeting, we 
had a large turnout of different Bands of our people and the 
Districts. And on this day, I think that they are all offering 
up prayer at this point in time for the success of our trip.
    Senator Johnson. Thank you, and I know that neither of you 
are particularly fond of a lot of travel back and forth from 
South Dakota to Washington, but your presence here is 
critically important, and your insights are very valuable to 
the committee.
    We of course will share this with the committee and staff, 
and as was noted at the outset that the goal here is not simply 
to augment the trust fund for the sake of augmenting the trust 
fund. What is at work here is trying to arrive at a systematic, 
equitable, fair way of determining what a fair trust fund 
compensation amount might be. That is what we are attempting to 
do here.
    It would be interesting to know a little more about the 
dynamic of why some trust funds are arrived at in a far 
different fashion than these trust funds were, but in any event 
these are two tribes with enormously urgent needs, high levels 
of unemployment and poverty. Great progress has been made 
thanks to the leadership of these two Chair, but much, much 
more needs to be done.
    It seems critically important to me if we are going to draw 
this whole debate to a closure that all the tribes up and down 
the Missouri River who have been negatively impacted by the 
flooding of their historic land base should know that they have 
been treated fairly and equitably. Otherwise, there can never 
be very much satisfaction about any of this.
    So thank you for your leadership, what you have done here. 
Dr. Lawson, thank you for your insights. We look forward to 
some written response to that one point that we raised with 
you.
    Mr. Lawson. Mr. Chairman, I wonder if I might add a 
personal note for the record?
    Senator Johnson. Certainly.
    Mr. Lawson. This whole endeavor of studying the impact of 
the Pick-Sloan dams on the Missouri River tribes began for me 
more than 30 years ago when I needed to find a subject to write 
a doctoral dissertation about. Okay? Over the years, all of the 
tribes that received additional compensation have used in part 
or in whole my research. I just wanted to say what an enormous 
good feeling it gives to me that these Indian people have 
received a very practical application of that research and that 
they have been able to enjoy the additional compensation that 
Congress has provided them over the years.
    Senator Johnson. We are very appreciative of your work. I 
think it is fair to say that it is rare that academic work has 
such very real-life applications as yours has. We have more 
work to do here, but we will fall back on your study and your 
examination in large measure in the course of doing this.
    Keep it in mind again that the revenue for the creation of 
these trust funds is not out of the general fund, but rather 
comes from the electricity production on these earthen dams 
that in fact flooded these tribes. So there is a certain 
justice at the end of the day in that regard as well.
    Thank you for your testimony. We will have ongoing 
communications with all of you as we move this legislation 
forward in a constructive bipartisan fashion. I most simply say 
thank you for your presence here today. I think the fact that 
the Chairman and the Ranking Member were very willing to allow 
us to go forward with this hearing today is a good omen. I am 
confident that we will reach a point where we can draw a close 
to this whole debate about Missouri River flooding 
compensation.
    Thank you again.
    With that, this hearing is adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Duane Big Eagle, Chairman, Crow Creek Sioux Tribe

    Mr. Chairman, Members of the Committee, I am Duane Big Eagle, 
Chairman of the Crow Creek Sioux Tribe. Thank you very much for the 
opportunity to testify in support of the Tribal Parity Act, S. 1530.
    First, I would also like to thank Senator Daschle for the 
introduction of the legislation, and Senator Johnson for cosponsoring. 
The legislation before you this morning is of great importance to the 
Crow Creek Sioux Tribe. We support it and urge its favorable 
consideration by the Committee and the Congress.
    The Crow Creek Sioux Tribe is, like Lower Brule, a constituent band 
of the Great Sioux Nation and a signatory of the Fort Laramie Treaty of 
1851 and the Fort Sully Treaty of 1865. The Missouri River establishes 
our western boundary, directly across the river from Lower Brule. The 
Big Bend Dam connects our two reservations and its construction 
effected our two reservations in a similar manner. It flooded our best 
bottomlands and required us to relocate our town; for us that is Fort 
Thompson.
    In 1996, the Congress enacted Public Law 104-223 creating the Crow 
Creek Sioux Tribe Infrastructure Development Trust Fund Act. It 
established a Trust Fund of $37,500,000 for the benefit of the tribe. 
The legislation before you today, S. 1530, the Tribal Parity Act, would 
compliment that earlier law.
    We are not seeking any advantage over any other tribe, just parity. 
The additional compensation called for in the Tribal Parity Act was 
computed by Dr. Lawson based on methodology used by the GAO for other 
tribes. The amount included in the legislation, was not computed by 
either the Crow Creek Sioux Tribe or the Lower Brule Sioux Tribe. It is 
the amount that Dr. Lawson has computed would bring us up to the 
standard used by the Congress for Cheyenne River.
    Candidly, Mr. Chairman, our tribe needs ever dollar that is fairly 
owed to us. Our unemployment rate is too high, our health problems are 
a significant barrier to progress, and our education and infrastructure 
systems are in need on great improvement.
    With the interest on the trust fund, we could much more effectively 
meet the challenges we face on the reservation, and these challenges 
can not be overstated. We are a small tribe with great human needs. The 
Tribal Parity Act is vital to the progress and future of the Crow Creek 
Sioux Tribe.
    Mr. Chairman, we all know--painfully--the history of the 
reservations in the United States and the history of the Great Sioux 
Nation Tribes, in particular. We are not near any major population 
center. We have a casino, as does Lower Brule, but that will never be a 
major source of income. For us to stand a chance, we must, at aminimum, 
be fairly compensated for the land that was taken by the Pick-Sloan. 
The $78 million in the Parity bill for Crow Creek, if added to our 
current trust fund, would give us a trust fund of $105 million. The 
interest on this trust fund would provide Crow Creek with the resources 
necessary to make a significant difference in the lives of our people 
and the lives of our children and grandchildren. It would, in short, 
give our tribe a second chance. Thank you for your consideration. I 
would be pleased to answer any questions.

[GRAPHIC] [TIFF OMITTED] T4449.001

[GRAPHIC] [TIFF OMITTED] T4449.002

[GRAPHIC] [TIFF OMITTED] T4449.003

[GRAPHIC] [TIFF OMITTED] T4449.004

[GRAPHIC] [TIFF OMITTED] T4449.005

[GRAPHIC] [TIFF OMITTED] T4449.006

[GRAPHIC] [TIFF OMITTED] T4449.007

[GRAPHIC] [TIFF OMITTED] T4449.008

[GRAPHIC] [TIFF OMITTED] T4449.009

[GRAPHIC] [TIFF OMITTED] T4449.010

[GRAPHIC] [TIFF OMITTED] T4449.011

[GRAPHIC] [TIFF OMITTED] T4449.012

[GRAPHIC] [TIFF OMITTED] T4449.013

[GRAPHIC] [TIFF OMITTED] T4449.014

[GRAPHIC] [TIFF OMITTED] T4449.015

[GRAPHIC] [TIFF OMITTED] T4449.016

[GRAPHIC] [TIFF OMITTED] T4449.017

[GRAPHIC] [TIFF OMITTED] T4449.018

[GRAPHIC] [TIFF OMITTED] T4449.019

[GRAPHIC] [TIFF OMITTED] T4449.020

[GRAPHIC] [TIFF OMITTED] T4449.021

[GRAPHIC] [TIFF OMITTED] T4449.022

[GRAPHIC] [TIFF OMITTED] T4449.023

[GRAPHIC] [TIFF OMITTED] T4449.024

[GRAPHIC] [TIFF OMITTED] T4449.025

[GRAPHIC] [TIFF OMITTED] T4449.026

[GRAPHIC] [TIFF OMITTED] T4449.027

[GRAPHIC] [TIFF OMITTED] T4449.028

[GRAPHIC] [TIFF OMITTED] T4449.029

[GRAPHIC] [TIFF OMITTED] T4449.030

[GRAPHIC] [TIFF OMITTED] T4449.031

[GRAPHIC] [TIFF OMITTED] T4449.032

[GRAPHIC] [TIFF OMITTED] T4449.033

[GRAPHIC] [TIFF OMITTED] T4449.034

[GRAPHIC] [TIFF OMITTED] T4449.035

[GRAPHIC] [TIFF OMITTED] T4449.036

[GRAPHIC] [TIFF OMITTED] T4449.037

[GRAPHIC] [TIFF OMITTED] T4449.038

[GRAPHIC] [TIFF OMITTED] T4449.039

[GRAPHIC] [TIFF OMITTED] T4449.040

[GRAPHIC] [TIFF OMITTED] T4449.041

[GRAPHIC] [TIFF OMITTED] T4449.042

[GRAPHIC] [TIFF OMITTED] T4449.043

[GRAPHIC] [TIFF OMITTED] T4449.044

[GRAPHIC] [TIFF OMITTED] T4449.045

[GRAPHIC] [TIFF OMITTED] T4449.046

[GRAPHIC] [TIFF OMITTED] T4449.047

[GRAPHIC] [TIFF OMITTED] T4449.048

[GRAPHIC] [TIFF OMITTED] T4449.049

[GRAPHIC] [TIFF OMITTED] T4449.050

[GRAPHIC] [TIFF OMITTED] T4449.051

[GRAPHIC] [TIFF OMITTED] T4449.052

[GRAPHIC] [TIFF OMITTED] T4449.053

[GRAPHIC] [TIFF OMITTED] T4449.054

[GRAPHIC] [TIFF OMITTED] T4449.055

[GRAPHIC] [TIFF OMITTED] T4449.056

[GRAPHIC] [TIFF OMITTED] T4449.057

[GRAPHIC] [TIFF OMITTED] T4449.058

[GRAPHIC] [TIFF OMITTED] T4449.059

[GRAPHIC] [TIFF OMITTED] T4449.060

[GRAPHIC] [TIFF OMITTED] T4449.061

[GRAPHIC] [TIFF OMITTED] T4449.062

[GRAPHIC] [TIFF OMITTED] T4449.063

[GRAPHIC] [TIFF OMITTED] T4449.064

[GRAPHIC] [TIFF OMITTED] T4449.065

[GRAPHIC] [TIFF OMITTED] T4449.066

[GRAPHIC] [TIFF OMITTED] T4449.067

[GRAPHIC] [TIFF OMITTED] T4449.068

[GRAPHIC] [TIFF OMITTED] T4449.069

[GRAPHIC] [TIFF OMITTED] T4449.070

[GRAPHIC] [TIFF OMITTED] T4449.071

[GRAPHIC] [TIFF OMITTED] T4449.072

[GRAPHIC] [TIFF OMITTED] T4449.073

[GRAPHIC] [TIFF OMITTED] T4449.074

[GRAPHIC] [TIFF OMITTED] T4449.075

[GRAPHIC] [TIFF OMITTED] T4449.076

[GRAPHIC] [TIFF OMITTED] T4449.077

[GRAPHIC] [TIFF OMITTED] T4449.078

[GRAPHIC] [TIFF OMITTED] T4449.079

[GRAPHIC] [TIFF OMITTED] T4449.080

[GRAPHIC] [TIFF OMITTED] T4449.081

[GRAPHIC] [TIFF OMITTED] T4449.082

[GRAPHIC] [TIFF OMITTED] T4449.083

[GRAPHIC] [TIFF OMITTED] T4449.084

[GRAPHIC] [TIFF OMITTED] T4449.085

[GRAPHIC] [TIFF OMITTED] T4449.086

[GRAPHIC] [TIFF OMITTED] T4449.087

[GRAPHIC] [TIFF OMITTED] T4449.088

[GRAPHIC] [TIFF OMITTED] T4449.089

[GRAPHIC] [TIFF OMITTED] T4449.090

[GRAPHIC] [TIFF OMITTED] T4449.091

[GRAPHIC] [TIFF OMITTED] T4449.092

[GRAPHIC] [TIFF OMITTED] T4449.093

[GRAPHIC] [TIFF OMITTED] T4449.094

                                 <all>

</pre></body></html>
